Report No. D-2010-035              January 11, 2010




           Defense Logistics Agency Contracts
            for M2 Machine Gun Spare Parts
                in Support of Operations
                    in Southwest Asia
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ARDEC                 Armament Research, Development and Engineering Center
DCMA                  Defense Contract Management Agency
DLA                   Defense Logistics Agency
DLAD                  Defense Logistics Agency Acquisition Directive
DSCC                  Defense Supply Center Columbus
FAR                   Federal Acquisition Regulation
PQDR                  Product Quality Deficiency Report
Report No. D-2010-035 (Project No. D2008-D000FD-0214.000)                    January 11, 2010

               Results in Brief: Defense Logistics Agency
               Contracts for M2 Machine Gun Spare Parts in
               Support of Operations in Southwest Asia
                                                            DLA missed an opportunity to obtain
What We Did                                                  approximately $405,000 in contractor
                                                             compensation for late deliveries.
We determined whether the Defense Logistics
Agency (DLA) used appropriate and effective               DLA has initiated several corrective actions to
contracting procedures to provide customers with          improve the quality of M2 machine gun parts.
critical application M2 machine gun parts.                Implementing our recommendations should
                                                          improve DLA’s internal controls over contracting.
What We Found
DLA did not have effective internal controls in
                                                          What We Recommend
place to ensure appropriate and effective                 We recommend that DLA establish controls and
contracting procedures related to contract quality        implement measures to improve its contract
assurance, product quality deficiency report              quality assurance procedures, product quality
processing, spare part kit assembly, and oversight        deficiency report processing, spare part kit
of contractor deliveries. Specifically,                   assembly, and contractor delivery oversight. We
                                                          recommend that the Defense Contract
   Contractors provided at least 7,100
                                                          Management Agency (DCMA), which assists
    nonconforming parts on 24 contracts.
                                                          DLA in contract administration, ensure adequate
   DLA did not adequately process 95 of 127              and thorough reviews of contractor test reports.
    product quality deficiency reports.
   DLA did not deliver 60 spare part kits on time
    to support a U.S. Army program to overhaul            Management Comments and
    2,600 M2 machine guns and provided                    Our Response
    nonconforming parts in kits.                          The Director, DLA, agreed with all findings and
   DLA did not pursue adequate compensation              recommendations and stated that each supply
    from contractors who were significantly late in       chain has established a contract quality position to
    providing critical parts on 49 contracts.             audit contractor performance. The Director also
                                                          agreed to review the quality assurance provisions
As a result,                                              for all critical small arms parts, document testing
                                                          results, and improve controls over product quality
   Warfighters had to wait for critical M2 gun           deficiency report processing and spare part kit
    parts as DLA had backorders on 7,183                  assembly. The Director’s comments were
    requisitions for 60,701 parts during a 12-            partially responsive. We request additional
    month period. Priority group 1 comprised              comments from the Director, DLA.
    4,097 of these requisitions for 40,333 parts.
   A U.S. Army program to overhaul M2                    The Director, DCMA, agreed with the finding and
    machine guns was negatively impacted.                 recommendation and stated that DCMA has
   DLA missed opportunities to identify                  established supervisor performance evaluations to
    contractors with performance problems and             ensure compliance with its updated quality
    obtain adequate compensation.                         assurance policy on reviews of contractor first
   Because of the quality problems, the                  article test reports. The Director’s comments were
    Government spent at least $655,000 in funds           responsive. See the recommendations table on the
    that could have been put to better use.               back of the page.

                                                      i
Report No. D-2010-035 (Project No. D2008-D000FD-0214.000)       January 11, 2010

Recommendations Table
Management                             Recommendations      No Additional Comments
                                       Requiring Comment    Required
Defense Logistics Agency               B.1.b, B.2,          A.1.a, A.1.b, B.1.a, B.3,
                                       D.2, D.3.            B.4, C.1, C.2, D.1, D.4.
Defense Contract Management Agency     None                 A.2


Please provide comments by February 11, 2010.




                                          ii
Table of Contents

Results in Brief                                                     i

Introduction                                                         1

       Objectives                                                   1
       Background                                                   1
       Review of Internal Controls                                  3

Finding A. Contract Quality Procedures                               4

       Management Actions                                           10
       Recommendations, Management Comments, and Our Response       11

Finding B. Processing Product Quality Deficiency Reports            13

       Management Actions                                           18
       Recommendations, Management Comments, and Our Response       19

Finding C. Assembling Spare Part Kits                               22

       Recommendations, Management Comments, and Our Response       26

Finding D. Contractor Deliveries                                    28

       Recommendations, Management Comments, and Our Response       34

Appendices

       A. Scope and Methodology                                     35
       B. Other Matters of Interest                                 37
       C. Quality Letter of Instruction for M2 Gun Part Contracts   39

Management Comments

       A. Defense Logistics Agency                                  40
       B. Defense Contract Management Agency                        44
Introduction
Objectives
Our objective was to determine whether DOD organizations used appropriate and
effective contracting procedures to provide customers with the spare parts for vehicle-
mounted small arms needed to support operations in Southwest Asia. This report focuses
on DLA contracts for M2 .50-caliber machine gun spare parts (M2 gun parts). See
Appendix A for a discussion of the scope and methodology.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” Section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits . . . to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.” This audit focused on DLA contracts for M2 gun parts and the M2 plays a
vital role in the operations in Southwest Asia.

Background
DLA is the largest DOD combat support agency, providing worldwide logistics support
in both peacetime and wartime to the Military Services as well as several civilian
agencies and foreign countries. DLA purchases spare parts for small arms weapon
systems through its Defense Supply Center Columbus (DSCC) Land Supply Chain, or
Land Division. The Land Division manages the total supply support and directs the
distribution of consumable repair parts for DOD land-based weapon systems. DCMA
assists DSCC by providing contract administration services.

M2 Machine Gun
The M2 is an automatic, belt-fed, recoil-operated, air-cooled, crew-operated machine
gun, capable of single-shot and automatic fire. Soldiers use the M2 machine gun on a
vehicular mount during both offensive and defensive operations. If necessary, it can be
mounted on a tripod for use on the ground. Warfighter infantry, military police, and
transportation and maintenance support units are the primary users of the M2 machine
gun.

The M2 plays a vital role in the operations in Southwest Asia. As of March 2009,
soldiers were using approximately 32,000 M2 machine guns, with 10,000 in use in
Southwest Asia. A new M2 machine gun costs approximately $13,000.




                                             1
                            Figure 1. M2 .50 Caliber Machine Gun




M2 Gun Parts Reviewed
DSCC managed 109 M2 gun parts, and we reviewed 22 of them: 21 spare parts and
1 spare part kit 1 that DSCC assembled for the U.S. Army. All selected parts were critical
application items. A critical application item is one that is essential to the preservation of
life in emergencies or essential to end-item or system performance, the failure of which
would adversely affect the accomplishment of a military operation. DSCC provided data
that showed a significant increase in demand for our sampled M2 gun parts since
FY 2000. In FY 2008, demand for our sampled items was 300 percent greater than
before the start of major contingency operations in Southwest Asia in FY 2001.

U.S. Army Commands
The U.S. Army Materiel Command provides materiel readiness and operates the research,
development, and engineering centers; depots; and arsenals. Several of its subordinate
commands play important roles in the management of small arms weapon systems.

The U.S. Army TACOM Life Cycle Management Command, Rock Island Small Arms
Group manages the M2 machine gun program and several other small arms weapon
systems. The heavy machine gun team is responsible for processing requisitions for end-
items and repair parts, preparing and updating the technical manual, developing
modifications for work orders, and responding to user requests for assistance. The team
interfaces with the design engineers to improve weapon performance.

The U.S. Army Research, Development and Engineering Command’s Armament
Research, Development and Engineering Center (ARDEC) researches, develops, and
sustains current and future armament and munitions systems and serves as the
M2 machine gun engineering support activity.



1
 The kit consists of 98 M2 gun parts that DLA assembles into a kit. The parts we reviewed are listed in
Appendix A.

                                                    2
The Anniston Army Depot Small Arms Shop overhauls unserviceable M2 machine guns.
In FY 2008, Anniston performed the overhauls using DLA spare part kits.

Review of Internal Controls
We determined that internal control weaknesses in the DLA contract quality assurance,
product quality deficiency report processing, spare part kit assembly, and contractor
oversight for M2 gun parts existed as defined by DOD Instruction 5010.40, “Managers’
Internal Control (MIC) Program Procedures,” January 4, 2006. We describe the control
problems, management actions, and recommendations for improvement in our four report
findings. Implementing all recommendations in this report will improve DLA internal
controls over contract quality assurance, product quality deficiency report processing,
spare part kit assembly, and contractor oversight for M2 gun parts. Specifically, these
actions should help get high-quality, critical application M2 gun parts to the warfighter in
a timely manner and improve DLA customer service. We will provide a copy of the
report to the DLA senior official responsible for internal controls.




                                             3
Finding A. Contract Quality Procedures
DSCC did not always use appropriate and effective contract quality assurance
procedures, and contractors provided at least 7,100 nonconforming M2 gun parts on 24
contracts. This occurred in part because responsible DSCC and DCMA personnel did not
always follow Federal and DLA guidance and ensure adequate and efficient Government
inspection of critical application parts. As a result, an increased risk was placed on the
warfighter. Specifically,

       DLA had backorders on 7,183 customer requisitions for 60,701 parts during a
        12-month period, and 4,097 of these orders for 40,333 parts represented the
        highest priority backorder status: priority group 1, and
       DLA’s customers generated 127 product quality deficiency reports (PQDRs). 2

In addition, the Government spent at least $280,000 because of the quality problems. 3

Criteria for Contract Quality Assurance
Federal Acquisition Regulation (FAR) Part 46, “Quality Assurance,” prescribes policies
and procedures to ensure that supplies the Government acquires by contract conform to
the contract’s quality and quantity requirements. The regulation includes inspection,
acceptance, warranty, and other measures associated with quality requirements necessary
to protect the Government’s interest.

The FAR identifies the extent of contract quality assurance requirements based upon the
technical description, complexity, and criticality of the application. According to the
FAR, complex items have quality characteristics that must be established progressively
through precise measurements, tests, and controls applied during purchasing,
manufacturing, performance, and assembly to ensure conformance. The FAR specifies
that organizations perform contract quality assurance as necessary to determine whether
supplies conform to contract requirements and that each contract designate the place
where Government reserves the right to perform contract quality assurance.

DLA Acquisition Directive (DLAD) Part 46, “Government Contract Quality Assurance,”
specifies that contracting personnel are to incorporate quality assurance requirements into
solicitations and contracts to encourage responsible contractor quality efforts and reduce
the need for Government oversight. Part 46.402 specifies that DLA is not to delegate
contract administration to DCMA for contracts, purchase orders, or delivery orders
valued at less than $250,000 nor to require quality assurance at the contractor’s facility


2
  DOD organizations use PQDRs to report product defects resulting from deficiencies in design,
workmanship, specifications, material, or other nonconforming conditions, such as improper packaging.
3
  The $280,000 and the $375,000 in Finding C total $655,000, the amount the Government spent because of
the contract quality issues.

                                                  4
unless the items have specific technical requirements or critical characteristics, or there
are specific acquisition concerns.

The DLA Technical-Quality Policy and Procedures Deskbook, Business Systems
Modernization Version, July 31, 2007 (DLA Technical Quality Deskbook), provides the
policy and defines responsibilities for Defense Supply Center technical and quality
support functions. The policy states that product specialists are to support the acquisition
function by ensuring that DLA contracts contain adequate contractual quality assurance
clauses and provisions to minimize Government acceptance of nonconforming items.
These provisions include such information as detailed first article testing, inspection, and
other testing requirements. Quality assurance provisions contractually obligate both the
contractor and the Government to perform specific actions, depending on the item’s
technical description, complexity, and criticality.

DLA maintains a material master file record that contains unique contract clauses and
provisions for each item. Product specialists are required to review the complete master
file, including both technical and quality-related data, and are responsible for updating
each material master record to ensure that clauses and provisions are inserted into
contract solicitations and awards. Product specialists also perform specific reviews, such
as pre-award surveys, before contract award to determine whether a contractor can
provide conforming parts.

Contracts Reviewed and Item Conformance
We sampled 22 unique DSCC-managed, critical application items for the M2 machine
gun. We reviewed 103 contracts for these items and determined the appropriateness of
the contract quality assurance provisions. For many of these contracts, DSCC shared
contract administration functions with DCMA. At least 7,100 items did not conform with
quality standards for 24 of the 103 contracts, including parts that:

    contractors manufactured incorrectly,
    did not meet specific quality standards, and
    contained inadequate phosphate surface coating to prevent corrosion.

Pre-award Contract Quality Assurance Procedures
Contractors produced at least 7,100 nonconforming M2 gun parts, in part because DSCC
personnel did not always perform adequate pre-award contract quality assurance
procedures and include appropriate contract quality provisions. Specifically, DSCC
coded contracts for inspection and acceptance at destination instead of origin and omitted
or waived contract first article testing requirements. Performance of these contract
quality assurance provisions would have assisted DSCC in determining whether
contractors could provide conforming spare parts.




                                              5
Quality Assurance Inspection Points
Quality Assurance at Final Destination
For 16 of the 103 contracts, DSCC assigned quality inspection and acceptance of goods
at final destination instead of origin. For six of these contracts, the responsible contractor
provided parts that did not conform to contract specifications.

The DLA Technical Quality Deskbook specifies that inspectors perform Government
contract quality assurance at either source (origin) or destination. Quality assurance
actions at source normally consist of Government personnel reviewing the contractor’s
processes and quality system, which may be coupled with a technical inspection of the
supplies. Government quality assurance actions at destination normally consist of kind,
count, and condition verification, unless DLA provides a quality letter of instruction
requesting specific technical inspection. Contract quality assurance is mandatory for
some specific categories of items based upon the critical nature of their application.

Ordinarily, the place of acceptance is assigned at the same location as the place of
performance for quality assurance actions. The DLA Technical Quality Deskbook lists
the inspection and acceptance codes. Product specialists are responsible for ensuring that
the material master record for each item contains the correct place of inspection code.
Both the DLAD and the DLA Technical Quality Deskbook specify coding critical
application items for inspection and acceptance at origin if the items have specific
technical requirements or critical characteristics or if there are specific acquisition
concerns. However, this did not always occur for our sampled M2 parts.

For example, DSCC contracted for sight covers and designated inspection and acceptance
at destination for these critical application items. The contractor delivered the parts to a
Defense Distribution Depot for storage. After delivery, DLA selected a sample of the
parts and tested their quality. The DSCC Product Test Center tested the parts and found
that they did not meet contract specifications. In addition, the Anniston Army Depot
identified 400 nonconforming parts delivered on the same contract.

Quality Assurance at Origin
Coding items for inspection and acceptance at origin does not always ensure that
adequate quality assurance takes place before shipment from the contractor’s facility.
For example, DCMA administered a DSCC contract for trigger bars, which required
inspection at origin, but the contractor used alternative release procedures 4 and shipped
1,419 parts directly to DLA customers. DCMA did not inspect the parts because it was
following an exception-based product assurance policy at the time, and DSCC had not
included a contract clause for higher level quality assurance.




4
 Alternative release procedures allow certain contractors, based on their performance history, to ship parts
without Government inspection.

                                                     6
A U.S. Army unit located in Iraq received the trigger bars and initiated a PQDR. The
unit reported that the contractor incorrectly manufactured the rear bend of the trigger bar
to the right instead of the left. A DCMA official informed us that the contractor misread
the drawing and incorrectly manufactured all 1,419 items. The contractor accepted full
responsibility and agreed to replace the defective parts at no cost to the Government. The
DCMA official informed us that the contractor replaced 780 of the parts in August 2008,
which was 11 months after the contract initially required the parts to be delivered in
September 2007.

First Article Testing Requirements
DSCC did not include a first article test requirement in 79 of the 103 contracts we
reviewed. For 21 of the 79 contracts, contractors ultimately provided parts that did not
conform to contract specifications. If DSCC had included appropriate quality assurance
provisions in these contracts, such as a first article testing requirement, it could have
identified contractor deficiencies at an earlier date.

A quality assurance provision DLA uses to determine whether contractors are capable of
providing acceptable quality parts is the first article test. This test is a separate contract
deliverable conducted after award but much sooner than the required delivery date for the
contractor’s full production of parts. The purpose of the test is to ensure that the
contractor can furnish a product that meets contract technical and quality assurance
requirements, therefore minimizing risk for both the contractor and the Government. The
test must include a sufficient quantity to clearly demonstrate that the materials,
manufacturing processes, and workmanship standards used for quality control are
adequate to produce an item that meets all required contract specifications.

The first article test can take place at the contractor's facility, at a Government facility, or
at an independent test facility, depending on the contract terms. The product specialist is
responsible for determining when a first article testing requirement is appropriate and for
identifying who is responsible for reviewing the reported test results. The product
specialist must consider previous product quality problems, including contractor-specific
quality problems, performance specifications, and the complexity or sensitivity of the
production and manufacturing processes required in determining whether the part
requires a first article test. There are two distinct phases of a first article test: pre-award
and post-award. The pre-award phase consists of defining the test requirement and
inserting it into the solicitation. The post-award phase focuses on administration, test
performance, and evaluation of test results.

DSCC did not always include first article testing requirements on subsequent purchases
from contractors that provided deficient parts on prior contracts. For example, DSCC
contracted for firing pins without including sufficient quality provisions despite the
contractor’s previous quality problems that customers identified on PQDRs. DSCC
continued to purchase parts from the same contractor without requiring it to submit items
for first article testing. The DSCC Product Testing Center subsequently conducted
multiple tests on the parts and found that they did not meet contract specifications.


                                               7
Post-award Contract Quality Assurance Procedures
DSCC and DCMA personnel did not always perform adequate post-award contract
quality assurance procedures and DSCC did not always use the most efficient product
testing methods. Specifically, responsible personnel did not adequately review contractor
first article test results for 3 of the 24 contracts. In addition, DSCC performed product
verification testing on all M2 parts, which is not always the most efficient quality control
method of testing.

Quality Reviews of First Article Test Results
The DLA Technical Quality Deskbook specifies that product specialists are responsible
for reviewing first article test reports. Product specialists can also delegate the review of
first article test reports to DCMA, but they are ultimately responsible for making
approval or disapproval recommendations to the contracting officer. For 3 of the 24
contracts with quality problems, DSCC relied on inadequate DCMA reviews of first
article test reports, and contractors provided nonconforming parts.

For example, DSCC relied on insufficient DCMA reviews and acceptances of contractor
first article test reports for cover assemblies. For one contract, our review of the
contractor’s first article test report revealed that the test results omitted a critical
interfacing characteristic. DCMA officials confirmed to us that the characteristic should
have been included in the test report and verified. The contractor delivered 586 items
that resulted in customer-generated PQDRs. The contractor acknowledged fault and
agreed to implement corrective actions. However, DSCC and DCMA officials we
contacted were unable to provide evidence that they had verified the contractor’s
proposed corrective actions.

DSCC awarded another contract for 625 parts to the same contractor, and DCMA
inspected the parts at the contractor’s facility and inappropriately approved them for
shipment. DCMA inspection records in the contract file lacked adequate documentation
on exactly what DCMA inspected and accepted. Customers generated PQDRs on parts
received against the second contract, citing the same problem that occurred on the first
contract. In total, customers generated 36 separate PQDRs identifying 233 defective
parts against both contracts.

Product Verification Testing
DSCC did not always use the most efficient quality assurance methods to test parts. As a
short-term solution to nonconforming parts, DSCC used product verification testing to
identify contractors that could not provide M2 gun parts in accordance with contract
specifications. However, product verification testing is not always the most efficient
quality control method in terms of timeliness and can be costly. Between June 2008 and
February 2009, the DSCC Product Test Center performed 20 product verification tests on
items associated with the M2 contracts we sampled. Contractors failed 14 of the 20 tests,
and the tests cost DLA more than $37,500.




                                              8
Product verification testing requires contractors to submit production-run items to a DLA
Product Test Center for examination before payment. DSCC generally takes longer to
evaluate contractor capabilities using product verification testing as compared with first
article testing. To illustrate, DSCC contracted for latch bolts in June 2008 without a first
article test requirement, and it required the contractor to start deliveries in
September 2008. The contractor subsequently failed three separate product verification
tests through December 2008, which was approximately 180 days after contract award.
In contrast, two prior contracts for latch bolts required first article testing 90 and 120 days
after contract award.

Impact of Quality Problems
The quality-related problems caused delays in customers’ obtaining critical M2 gun parts
in a timely manner, resulted in customer-generated PQDRs, and required Government
resources to address. Our 22 sampled M2 parts appeared on backorder listings for an
average of nearly 8 months during a 12-month period. During this time, DLA had 7,183
customer requisitions for 60,701 M2 gun parts on backorder. Among those were 2,100
orders that originated in Southwest Asia for 16,734 parts. Overall, 4,097 orders for
40,333 parts were priority group 1, the highest priority backorder status. For example,
backorders for metal tube assemblies grew to more than 1,860 items during 2008. This
represents more than 12 months of demand for a critical application item. In addition,
DLA’s customers generated 127 PQDRs for our 22 sampled M2 parts.

The Government spent at least $280,000 to address the quality issues, including $190,000
that DLA spent and $90,000 that the U.S. Army ARDEC spent. Specifically, DLA
incurred costs of at least $190,000 because of the quality-related problems. These costs
included product testing costs and costs DLA incurred for defective parts, where DSCC
did not hold the responsible contractor accountable for rework or replacement of the
items or other compensation. In addition, the situation forced DSCC to make emergency
buys at prices up to 300 percent greater than they previously paid for the items. Also, as
described in Finding C, the quality problems negatively impacted an FY 2008 Anniston
Army Depot M2 machine gun overhaul program.

U.S. Army engineering officials we interviewed cited concerns regarding the excessive
costs associated with processing PQDRs for DLA-managed items. U.S. Army ARDEC
provided details on more than $90,000 in nonreimbursed costs they incurred as a result of
quality issues with DLA-managed M2 parts. Engineering officials also provided the
results of a U.S. Army Materiel Systems Analysis Activity PQDR cost study. The study
estimated the total Army costs resulting from nonconforming DLA parts at the Anniston
Army Depot small arms product line. The study estimates that the Army annually incurs
costs of more than $700,000 as a result of PQDRs associated with DLA-managed small
arms parts. U.S. Army officials also expressed concerns that the number of PQDRs may
not reflect the complete magnitude of the quality problem because many soldiers do not
have the time to prepare PQDRs during wartime.




                                              9
Management Actions
DSCC and DCMA took several actions to address the problem of nonconforming
M2 parts before and during our audit. DSCC revised the material master records for the
parts to require first article testing and inspection and acceptance at origin. In addition,
DSCC required its product specialists to review first article test reports and prohibited
them from delegating the review to an administrative contracting officer. For five of our
sampled items, DSCC restricted the pool of contractors that could bid on contracts to
sources that Government engineers had preapproved.

DSCC signed a memorandum of agreement with ARDEC to improve the accuracy of the
technical data packages it includes in contracts for M2 gun parts. (Appendix B provides
details on this effort.) DSCC also updated the quality assurance letter of instruction and
stated that all procurements for M2 gun parts must now have the updated letter attached.
(Appendix C contains details on the updated quality letter.) In addition, DSCC, DCMA,
and U.S. Army officials meet periodically at small arms summits to discuss problems and
methods to improve the quality of small arms parts.

In response to a discussion draft of this report, DSCC provided a list of additional process
improvements it had recently implemented to improve the quality of its spare parts.
These process improvements are listed in Appendix B. We did not validate the
effectiveness of these management actions.

In February 2009, DCMA updated its product assurance instructions related to alternative
release procedures from an “exception-based product assurance” to a “limited product
assurance” policy. Exception-based product assurance did not explicitly require product
assurance personnel to do an assessment of the contractors before placing them on an
alternative release plan. Limited product assurance policy requires DCMA to establish a
basis of confidence before placing contractors on an alternative release plan.

DCMA also updated its policy to include additional details on its oversight of contractor
first article testing. The policy requires DCMA quality assurance representatives to
verify the contractor’s inspection of critical and major product characteristics in first
article test reports by observation or independent inspection. The revised policy also
includes detailed documentation requirements for these quality assurance reviews.

Conclusion
DSCC and DCMA did not always use appropriate and effective contracting quality
assurance procedures to ensure that contractors provided M2 machine gun parts that
conformed to contract specifications. This increased the risk for the warfighter, who had
to wait for critical M2 gun parts. DSCC has taken several corrective actions and needs to
consistently use the appropriate pre-award and post-award quality assurance procedures
to ensure that contractors can provide critical application spare parts that conform to
contract specifications. We did not validate the effectiveness of the corrective actions.
DLA needs to establish controls, such as an action plan with metrics, to ensure that
DSCC fully implements and sustains all corrective actions.

                                             10
The M2 gun parts we reviewed represent only a small portion of DLA-managed items. A
risk exists that additional DLA-managed critical application items for other small arms
weapon systems are not subjected to adequate quality controls, and as such, we are
making the following recommendations.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Director, Defense Logistics Agency:

   a. Establish an action plan with metrics to ensure that Defense Supply Center
personnel fully implement and sustain the corrective actions initiated before and
during the audit and use appropriate contract quality assurance procedures for all
future purchases of M2 machine gun spare parts.

    b. Review all critical application small arms parts with specific technical
requirements, critical characteristics, or specific acquisition concerns to ensure that
appropriate contract quality assurance provisions exist in the material master
record prior to any purchase actions. These quality assurance provisions should
include inspection and acceptance at origin, first article tests or other quality
inspection requirements, and applicable quality letters of instruction.

Defense Logistics Agency Comments
The Director, Acquisition Management, responded for the Director, DLA, and agreed
with recommendations A.1.a and A.1.b. She stated that each supply chain has established
an associate position for contract quality control to audit pre- and post-award
performance and that the contract quality associate and management team would monitor
specific corrective actions resulting from the audits. The Director stated that a plan is in
place to review technical requirements for critical application small arms parts. The
Director agreed to review all critical application small arms parts to ensure that specific
technical requirements, critical characteristics, or specific acquisition concerns are
reviewed before any purchase actions.

Our Response
We consider the Director’s comments to be responsive.

A.2. We recommend that the Director, Defense Contract Management Agency,
establish controls and implement measures to ensure that quality assurance
representatives perform adequate and thorough reviews of contractor first article
test reports, fully document the testing and acceptance of the results, and retain the
results in the contract file.

Defense Contract Management Agency Comments
The Executive Director, Operations Management and Customer Relations, DCMA,
responded for the Director, DCMA, and agreed with the recommendation. She stated that

                                            11
DCMA has established an additional control requiring first-line supervisor performance
evaluations. The evaluations require supervisors to review, annually, the performance of
all of their subordinates according to quality assurance instructions, including the newly
revised instruction for performance with the first article inspection and test. The
scheduled date for deployment of the first-line supervisor performance evaluation policy
was November 30, 2009.

Our Response
We consider the Executive Director’s comments to be responsive.




                                            12
Finding B. Processing Product Quality
Deficiency Reports
DSCC did not process 95 5 of 127 PQDRs for M2 gun parts in a timely manner or
adequately resolve the root cause of the deficiencies. These conditions occurred because:

       DSCC personnel responsible for processing PQDRs did not always comply with
        applicable DOD and DLA policy; and
       DLA did not establish adequate controls to monitor compliance, and its policy did
        not provide measurable performance goals and metrics for PQDR processing.

As a result, DLA did not provide effective customer support and missed opportunities to
identify contractors with performance problems and obtain adequate compensation for
deficient parts.

Quality Deficiency Reporting Process
DOD organizations use PQDRs to report product defects resulting from deficiencies in
design, workmanship, specifications, material, or other nonconforming conditions, such
as improper packaging. The PQDR process begins when personnel identify and report
defective material. The process primarily focuses on the following four roles:

       Originator: The individual who discovers defective material and initiates the
        PQDR.
       Screening Point: The organization that reviews the originator’s PQDR.
       Action Point: The organization that receives the PQDR from the screening point,
        investigates and resolves it, and provides feedback to the screening point.
       Support Point: The organization that assists the action point in the investigation.

A DSCC product specialist was usually the action point for the PQDRs we reviewed.
DCMA was the support point for the PQDRs we examined.

Originators generate a PQDR as either a category I or category II, depending on the
nature of the deficiency. A category I PQDR is a report of a product quality deficiency
that may cause death, injury, or severe occupational illness; does cause major loss or
damage to a weapon system; critically restricts the combat-readiness capabilities of the
using organization; or results in a production line stoppage. A category II PQDR is a
report of a product quality deficiency that does not meet the criteria set forth in
category I. DOD organizations document PQDR processing and resolution in the U.S.


5
  This includes 81 PQDRs that DSCC did not process in a timely manner and 62 that it did not adequately
resolve; 48 of the 62 were also not processed in a timely manner, resulting in a total of 95 [81+62-48]
unique PQDRs.

                                                   13
Navy-hosted Product Data Reporting and Evaluation Program information system. In
some cases, organizations provide the nonconforming part for Government or contractor
testing. The part is referred to as an exhibit.

Criteria for PQDR Processing
DLA Regulation 4155.24, “Product Quality Deficiency Report Program,” July 20, 1993,
is the DOD Joint Regulation that governs PQDR processing. The regulation specifies
that Government organizations pursue cost-free repair or replacement or reimbursement
for the defective material when the deficiency is the contractor’s responsibility. The
regulation also specifies that organizations should take preventive action to avoid
additional, related quality deficiencies. Further, the regulation outlines the PQDR
processing steps, including the amount of time spent at each step. DLA’s Technical
Quality Deskbook, July 31, 2007, provides additional DLA PQDR processing policy and
procedures. Table 1 shows the DOD PQDR processing criteria.

               Table 1. DOD Criteria on PQDR Processing Timeliness
                                                                Processing Days
       PQDR Processing Phase and Description               Category I    Category II
 Days action point final or interim replies are required
 after PQDR receipt if a support point is not involved.*       20            30
 Days action points are required to forward the PQDR
 to the support point after PQDR receipt.                       1            10
 Days action points are required to return the PQDR for
 closure after receipt of the support point’s final reply.      5            10
* If the process requires an “exhibit,” timeliness is measured from the day of its receipt.

DLA Regulation 4155.24 specifies that interim replies address the status of the
investigation, estimated date and time of the final reply, and any need for delay. The
DLA Technical Quality Deskbook also specifies that interim replies should be provided
at least every 30 days until a final reply is sent. The DLA One Book Process Chapter,
“Product Quality Deficiency Report,” October 31, 2008, provides additional DLA
guidance on PQDR processing. The policy specifies the DLA metrics to measure
customer satisfaction as the number of product defects customers report and the average
DLA response time. However, the guidance specifically states that there are no defined
performance goals. DSCC operates under an informal 60-day PQDR processing goal.

Timeliness of Processing Deficiency Reports
DSCC did not always process PQDRs for our sampled M2 gun parts within the time
frames set by DOD and DLA policy. Specifically, DSCC did not meet the processing
time frames for providing interim replies and completing PQDR investigations,
forwarding them to support points, or closing them after a support point finished its
investigation. Untimely PQDR processing could negatively impact the customer service
DLA provides to the warfighter.


                                                     14
We reviewed 127 PQDRs related to our 22 sample items where DSCC was the action
point. Of the 127 PQDRs, DSCC performed the investigations for 106 and delegated the
investigation to a support point for 21. Overall, DSCC did not process 81 of the 127
PQDRs in a timely manner. On average, DSCC PQDRs that did not comply with DOD
processing criteria spent 116 days under investigation, not including any time spent
waiting for an exhibit. We measured the DSCC processing time for our sampled PQDRs
against the DOD processing guidelines, and Table 2 illustrates the results.

                           Table 2. DSCC PQDR Processing Results
                                                       PQDRs                           Untimely
                   Processing Category                 Tested                           PQDRs
    DSCC PQDR investigation or interim reply             106                              67
    DSCC delegating the PQDR to a support point or
    closing it after receipt from a support point         21                                14*
     Total                                               127                                81
* This includes 8 PQDRs that DSCC did not delegate timely and 10 PQDRs that DSCC did not close
timely. There were 4 PQDRs that failed both tests, resulting in 14 [8+10-4] unique PQDRs.

DSCC product specialists did not always begin PQDR investigations in a timely manner.
For example, DSCC generated a PQDR on November 28, 2007, after a Product Test
Center quality test identified nonconforming parts. On the same day, the PQDR reached
the product specialist, who acknowledged receipt immediately. The PQDR was then
dormant for approximately 10 months, until October 2008, when we inquired about it.
DSCC took prompt action and processed the PQDR. However, from the time of PQDR
origination until completion, the contractor had delivered more than 9,000 parts on the
same contract and a December 2008 product verification test found that the parts did not
meet contract specifications.

In cases where DSCC provided interim replies to customers, the replies routinely lacked
required information, such as the status of the PQDR investigation and an estimated
completion date. For 137 interim replies that DSCC sent to customers, 6 only 70 included
the status of the investigation, and only 36 contained an estimated completion date. For
example, a U.S. Army unit originated a PQDR in March 2007, and DSCC closed it in
October 2007. DSCC sent six interim replies during this period, and every reply
contained the same generic statement that DSCC had received the PQDR and a product
specialist was working on it. DSCC did not send the interim replies in 30-day intervals
and also did not provide the status of the investigation or an estimate of the completion
date. The interim replies served little purpose beyond assuring the screening point that
the PQDR had not been lost or forgotten.

As another example, the Small Arms Support Center for Operation Iraqi Freedom in Iraq
generated a PQDR in May 2008. DSCC did not send a final reply containing disposition


6
    This number exceeds the total PQDRs we reviewed because a PQDR can have multiple interim replies.

                                                   15
instructions for the defective parts until February 2009, 290 days later. During this time,
the Product Data Reporting and Evaluation Program history log showed only two system-
generated late notifications the system sent to DSCC. The DSCC final reply was not
timely and did not represent good customer service to the warfighter.

Resolution of Deficiency Reports
DSCC did not adequately resolve PQDRs for M2 gun parts in accordance with DLA
policy and fully pursue cost-free repair or replacement or reimbursement for defective
materiel. Specifically, DSCC did not achieve an adequate resolution on 62 of 127
PQDRs for our sampled M2 gun parts. By not adequately resolving PQDRs, DLA
missed opportunities to identify contractors with performance problems and obtain
adequate compensation.

DSCC product specialists were not fully investigating PQDRs if the originator did not
provide certain information. Missing information can make the investigation more
difficult and may limit the product specialist’s ability to resolve the situation. The DLA
Technical Quality Deskbook specifies that the nonavailability of award document,
contract number, or requisition number does not preclude further PQDR investigation.
The policy further specifies that a product specialist’s investigation should include
examination of both open and resolved PQDRs. Product specialists did not always
follow DLA guidance and dropped issues too quickly and prematurely closed PQDRs.

DSCC product specialists closed 37 PQDRs because of insufficient information.
However, we determined that 31 of the 37 closed PQDRs contained sufficient
information to warrant additional investigation. For example, product specialists did not
appropriately apprise the responsible contractor about deficient cover assemblies on 12
PQDRs and indicated that they closed the PQDRs because of insufficient or inaccurate
information. For these PQDRs, we determined that sufficient information did, in fact,
exist to warrant additional investigation. For example, four of the PQDRs identified the
responsible contractor.

In some cases, product specialists identified the responsible contractor that provided
deficient parts but did not complete the PQDR process and fully pursue cost-free repair,
replacement, or reimbursement for defective materiel. For 24 PQDRs, an error by a DLA
storage depot and lack of DSCC monitoring precluded the return of the nonconforming
cover assemblies for replacement. Specifically, DLA sent the wrong parts to the
contractor for replacement, and DSCC never resolved the issue. Overall, for 233
deficient cover assemblies on 36 PQDRs that product specialists did not adequately
resolve, DSCC did not hold the responsible contractor accountable for replacing the parts
or for providing compensation for the $36,638 purchase price.

Report Processing Controls and Metrics
DLA did not establish adequate controls to monitor compliance with the PQDR program.
In addition, DLA policy did not provide measurable performance goals and metrics for
Supply Center PQDR processing. The DOD Joint Regulation that governs PQDR


                                            16
processing provides specific guidelines on the maximum number of days organizations
should take during each phase of the PQDR process. However, DLA’s policy
specifically states that there are no established performance goals for the PQDR process.
DLA cannot fully measure the effectiveness of its PQDR process without establishing
goals and effective controls to monitor performance.

DSCC’s primary metric for evaluating the timeliness of PQDRs is the average number of
days to process the PQDR. DSCC uses an informal 60-day goal for PQDR processing.
Although this is its primary goal, DSCC has not come close to reaching it. DSCC’s
secondary metric for evaluating PQDRs involves a monthly sample plan. The monthly
sample consists of PQDRs DSCC randomly chooses from a population of recently closed
PQDRs. The sample size is 5 percent of PQDRs from each DSCC division, and in our
opinion, is too small to provide very reliable information. For example, the DSCC Land
Division closes roughly 80 PQDRs per month, selects approximately 4, and reviews the
processing time and compliance with a list of quality requirements.

DSCC also counts the total number of PQDRs customers submit and the most common
PQDR sources. However, these metrics do not adequately measure the effectiveness of
DSCC’s PQDR processing. DLA is missing metrics to fully test compliance with the
DOD Joint Regulation and to adequately measure Supply Center PQDR resolution
timeliness and quality. Specifically, the existing metrics do not address the quality of
interim replies, timeliness of the third or greater interim reply, or the time DSCC spent to
close a PQDR sent back by a support point.

Overall DSCC Land Division PQDR Processing
Our analysis of all DSCC Land Division PQDRs showed a trend of untimely processing
that was consistent with our analysis of M2 gun part-related PQDRs. Figure 2 shows the
increase in the average PQDR processing time between August 2007 and March 2009.

                   Figure 2. Average DSCC Land Division PQDR Processing Time

             300




             200
 Days open




             100




              0
                                                         A




                                                                    N
                   A




                            N




                                               M
                                      Fe




                                                                                Fe
                                                          ug




                                                                     ov
                    ug




                             ov




                                                ay
                                        b-




                                                                                  b-
                               -0




                                                                       -0
                                                  -0




                                                            -0
                      -0




                                          08




                                                                                    09
                                                                          8
                                  7
                        7




                                                    8




                                                              8




                                               17
Overall, the average processing time for DSCC Land Division PQDRs was 183 days.
Note that this measure of processing time does not directly correspond to the average of
116 days for our sampled M2 gun parts. The 116 days exclude generally small periods of
time personnel spent in the early and final steps of a PQDR in addition to any time
personnel spent waiting for an exhibit. The 183 days merely compares the PQDR
opening and closing dates.

Figure 3 illustrates the backlog of DSCC Land Division PQDRs between August 2007
and March 2009.

                                         Figure 3. DSCC Land Division PQDR Backlog

                            8
  Months of PQDR Workload




                            6


                            4


                            2


                            0
                                A




                                         N




                                                            M




                                                                     A




                                                                              N
                                                   Fe




                                                                                        Fe
                                 ug




                                          ov




                                                                      ug




                                                                               ov
                                                             ay
                                                     b-




                                                                                          b-
                                            -0




                                                                                 -0
                                   -0




                                                               -0




                                                                        -0
                                                       08




                                                                                            09
                                               7




                                                                                    8
                                     7




                                                                 8




                                                                          8




The backlog peaked in July 2008 at more than 6 months of workload, or 577 PQDRs. It
then decreased from January to March 2009, bringing it to more than 4 months of
workload, or 349 PQDRs. DLA should determine whether adequate staffing exists
because DSCC has not processed PQDRs in a timely manner and a significant number of
PQDRs were backlogged.

U.S. Army Concerns
Members of the U.S. Army engineering community also expressed concerns regarding
PQDR processing by DLA. Specifically, engineering officials cited problems in
obtaining a cause, corrective action, and preventive action for PQDRs associated with
DLA-managed items. Among these, they noted that DLA too often closed PQDRs for
insufficient information or judged the deficiency to be an isolated incident. They also
expressed concern about the lack of DLA requests for U.S. Army engineering support
during DLA PQDR investigations.

Management Actions
The DSCC Land Division has initiated corrective actions that should help solve some of
the PQDR processing problems we identified. Between February and April 2009, DSCC
officials implemented measures to filter out PQDRs that duplicated PQDRs for the same

                                                            18
issue that DSCC was investigating or had already investigated. In addition, DSCC
developed measures to address PQDRs that were missing information and PQDRs that
product specialists closed without a full investigation.

DSCC also developed a process that incorporates timeliness metrics for PQDR
processing into the annual performance appraisals for responsible individuals. The latter
process should help reduce processing times, but it could also lead to lower quality as
those involved rush to meet timeliness goals. We could not analyze the effectiveness of
either of these actions because DSCC instituted them at the end of our audit fieldwork.
DLA should evaluate the effectiveness of these measures when addressing our audit
recommendations.

Conclusion
DSCC’s Land Division has not processed PQDRs in a timely or effective manner. The
PQDR process exists to correct problems and to prevent the recurrence of root issues.
When Supply Center processing is slow or ineffective, DLA does not achieve these goals
and can allow problems to recur. In addition, the lack of adequate DLA performance
goals and metrics makes it difficult for DLA to measure performance. As a result, DLA
is not providing effective customer support to the warfighter and is missing opportunities
to identify contractors with performance problems and to obtain adequate compensation
for deficient parts.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director, Defense Logistics Agency:

   1. Evaluate the Defense Supply Center Columbus Land Division’s recent
product quality deficiency report processing initiatives and establish controls and
implement measures to improve timeliness and quality and ensure that responsible
Defense Supply Center personnel:

       a. Process product quality deficiency reports in a timely manner and provide
interim replies to customers at least every 30 days that contain pertinent
information on the status of the investigation and an estimated resolution date.

       b. Fully and adequately research product quality deficiency reports to
determine the root cause of the deficiency and obtain appropriate compensation
from responsible contractors, even when information such as a contract number is
missing.

Defense Logistics Agency Comments
The Director, Acquisition Management, responded for the Director, DLA, and agreed
with recommendations B.1.a and B.1.b. She stated that DSCC tracks PQDR aging and
would establish FY 2010 management objectives. The Director also agreed that specific


                                            19
and measurable metrics to manage the PQDR process should be included in the Defense
Logistics Agency One Book.

Our Response
We consider the Director’s comments to be responsive for Recommendation B.1.a. We
consider the Director’s comments to be partially responsive for Recommendation B.1.b
because they did not identify corrective actions to address the recommendation.
Specifically, the comments do not address establishing controls and measures to ensure
that PDQRs are fully and adequately researched to determine the root cause of quality
deficiencies and appropriate compensation is obtained from responsible contractors. We
request that the Director, DLA, provide specific corrective actions to address
Recommendation B.1.b in the response to the final report.

    2. Evaluate the metrics used to manage the product quality deficiency reporting
process and update the applicable Defense Logistics Agency One Book Process
Chapter, “Product Quality Deficiency Report.” The updates should include
sufficient and measurable performance goals to effectively guide the evaluation of
product quality deficiency report processing timeliness and quality of resolution in
accordance with the guidelines provided in the DOD Joint Regulation on product
quality deficiency reporting (Defense Logistics Agency Regulation 4155.24).

Defense Logistics Agency Comments
The Director, Acquisition Management, responded for the Director, DLA, and agreed
with Recommendation B.2. She stated that specific and measurable metrics to manage
the PQDR process should be included in the Defense Logistics Agency One Book.

Our Response
Although the Director agreed with the recommendation, we consider the comments to be
partially responsive. The Director agreed that specific and measurable metrics to manage
the PDQR process should be included in the Defense Logistics Agency One Book.
However, the Director did not agree to actually include the specific and measurable
metrics or provide supporting details. We request the Director, DLA, provide specific
corrective actions for recommendation B.2 in the response to the final report.

   3. Evaluate the sufficiency of the sample plan that the Defense Supply Centers
use to evaluate the product quality deficiency reporting process and consider
increasing the sample size and aligning the evaluation criteria with performance
goals established in response to recommendation B.2.

Defense Logistics Agency Comments
The Director, Acquisition Management, responded for the Director, DLA, and agreed
with the recommendation. She stated that DSCC would evaluate the sufficiency of the
sampling plan.




                                          20
Our Response
We consider the Director’s comments to be responsive.

   4. Perform a staffing review to determine whether sufficient personnel are
available to process the backlog of customer product quality deficiency reports in
addition to handling the daily product quality deficiency report workload.

Defense Logistics Agency Comments
The Director, Acquisition Management, responded for the Director, DLA, and agreed
with the recommendation. She stated that as part of the monthly reviews of the PQDR
backlog, DSCC would assess appropriate staffing targets.

Our Response
We consider the Director’s comments to be responsive.




                                         21
Finding C. Assembling Spare Part Kits
Although the U.S. Army provided $8 million to DSCC for 60 spare part kits to support an
FY 2008 Anniston Army Depot M2 machine gun overhaul program, DSCC:

       did not deliver the 60 complete kits on time to support U.S. Army requirements to
        overhaul 2,600 guns,
       improperly included nonconforming parts in the kits, and
       mistakenly purchased items that the U.S. Army did not require for the kits.

These conditions occurred, in part, because DSCC personnel did not comply with DLA’s
existing policy on assembling spare part kits. In addition, as discussed in Finding A,
DSCC’s lack of proper contract quality procedures led to contractors’ providing
nonconforming parts. As a result, the Anniston Army Depot disassembled unserviceable
M2 machine guns to obtain parts and also reworked nonconforming parts to complete the
overhaul program in FY 2009. These efforts cost the Government at least $375,000. 7 In
addition, DSCC purchased unnecessary items.

Spare Part Kit and Overhaul Schedule
In September 2007, the U.S. Army provided a final bill of materials to DSCC for the M2
gun kit. The bill of materials listed the 98 critical application spare parts that the U.S.
Army needed for each M2 gun kit. Each kit supported 50 M2 gun overhauls. In October
2007, the U.S. Army provided DSCC with an $8 million purchase request for 60 DLA
kits. It required DLA to deliver the M2 kits to Anniston Army Depot to support the U.S.
Army’s overhaul of 2,600 M2 guns 8 originally scheduled to begin in February 2008 and
continue through September 2008. DLA shipped the individual parts to the Defense
Distribution Depot Anniston, where depot personnel assembled them into kits for
delivery to the Anniston Army Depot small arms shop.

Criteria for Assembling Spare Part Kits
The DLA Technical Quality Deskbook provides guidance on DLA spare part kit
assembly and customer support. The policy specifies the following responsibilities for
DLA personnel involved in assembling the kits.

       Ensure sources of supply and related component lead times can be met or aligned
        with the customer demand and delivery schedule. This includes maintaining
        oversight over the kit components at various stages in the assembly process,



7
  The $375,000 and the $280,000 in Finding A total $655,000, the amount the Government spent because
of the contract quality issues.
8
  The U.S. Army originally planned to overhaul 3,000 M2 guns (60 kits x 50 guns = 3,000) but Anniston
Army Depot scheduling data showed that they ultimately scheduled and completed 2,600.

                                                  22
       making decisions on how to meet customer schedules, and monitoring the status
       of the process.
      Interface with demand and supply planners, product specialists, acquisition
       specialists, weapon system support managers, and other responsible personnel to
       ensure demands are met.
      Validate the completed kit bill of materials.

DLA Kit Deliveries
DLA began delivering incomplete gun kits to Anniston Army Depot in April 2008. U.S.
Army personnel identified 15 deficient parts when they opened the first kit. The
deficiencies included 10 items that were rusty and not finished adequately with the proper
phosphate surface coating. The remaining 5 items had other nonconformance problems.

Anniston Army Depot generated a PQDR to document the problem parts. The
deficiencies resulted from the lack of proper DSCC contract quality procedures discussed
in Finding A. In addition, DLA should have inspected the parts before kit assembly and
delivery. DLA took action to have a quality inspector on site at the Anniston Army
Depot to inspect the M2 gun kit parts upon arrival.

We visited Anniston Army Depot in December 2008 and determined that DLA had
provided the U.S. Army with only 2 complete kits; the other 58 kits were missing parts.
We obtained a listing of all parts missing from the kits. Table 3 shows the number of
parts missing from the kits ranged from zero to 35.

                        Table 3. DLA Kits and Missing Parts
                                   Number of
                          Kits             Parts Missing
                            2                     0
                            2                     1
                           13                     2
                            1                     3
                            2                     4
                            5                    10
                            1                    11
                            3                    12
                           11                    13
                            9                    14
                            8                    15
                            1                    18
                            1                    22
                            1                    35



                                           23
We also visited the DLA Defense Distribution Depot Anniston in December 2008 and
observed the DLA kit assembly and delivery process, which involved DLA and U.S.
Army personnel using multiple spreadsheets and hand receipts to track partial kit
deliveries and account for missing items. DLA personnel informed us that manual
workarounds were required because of limitations with the depot information system.
Because of the urgency of the M2 overhaul program, DLA provided the small arms shop
with 50 incomplete kits and agreed to provide any missing parts at a later date. Personnel
at the small arms shop stated that 28 kits were substantially complete and 22 kits were
missing a significant number of parts. The DLA Distribution Standard System records
showed that 28 kits had been issued to the U.S. Army and 22 were still on hand. As of
December 2, 2008, DSCC billing records showed that DSCC had only sold one kit and
charged it against the $8 million purchase request 9 that the U.S. Army provided in
October 2007.

DSCC M2 Gun Part Kit Assembly
In addition to providing the U.S. Army with nonconforming parts, DSCC did not always
follow DLA policy on kit assembly and ensure that sources of supply and related
component lead times could be met and aligned with the customer’s demand and delivery
schedule. DSCC officials we interviewed could not provide evidence that they had
assurance at the beginning of the M2 gun part kit assembly effort that sufficient stock
would be available for all 98 kit parts to meet the customer’s requirements. In addition,
DSCC did not validate the customer’s completed bill of materials and purchased
unnecessary items that were not part of the M2 gun kit.

The U.S. Army’s FY 2008 demands for gun kits represented special future requirements,
and DSCC had to load the forecasted kit demands into its supply management system to
track that sufficient stock was on hand and on order to meet these requirements as well as
the normal recurring demands for the items. Our audit sample included 15 items that
were part of the M2 machine gun overhaul kit. For these items, we determined whether
DSCC properly loaded the special requirements for the kits into the supply management
system.

Demand Forecasting
DSCC did not properly load into the supply management system the kit demands for five
of our sample items and attributed a likely cause of the problems to the supply
management system. In some instances, DSCC personnel could not determine whether
the demands had ever been loaded. For example, we reviewed the M2 back plate and
determined that personnel did not load forecasted gun kit demands into the system. In
September 2007, when DSCC should have loaded the kit demands, prior customer
requisitions for 293 items were on backorder, and 550 items were due in from
contractors. The U.S. Army demand, however, required an additional 2,600 back plates
to support the M2 gun overhaul program, which was scheduled to begin in February


9
  Our followup revealed that as of May 2009, DSCC had only billed 9 of the 60 kits against the purchase
request.

                                                   24
2008. In January 2008, DSCC initiated an emergency buy for 3,000 items. Due to the
shortage, the back plate appeared on all of the monthly backorder listings from
September 2007 through June 2008.

In addition, DSCC personnel did not always ensure that contractor lead times could be
met and aligned with the gun kit delivery schedule as DLA policy for kit assembly
requires. For example, our sample included latch bolts. In September 2007, DSCC
loaded the forecasted M2 gun kit demands into the supply management system.
However, at that time, there was no stock on hand, and 3,316 items were on backorder.
In addition, the item had a manufacturing lead time of 210 days, so that it would take
approximately 7 months for a new order to be processed and delivered.

The initial scheduled DLA delivery of M2 kits to Anniston Army Depot to support the
overhaul of 2,600 M2 machine guns was February 2008. DSCC ordered 5,013 latch bolts
in September 2007. However, the contract delivery date for the initial 1,000 parts was
June 2008, and the delivery date for the remaining quantity was FY 2009. We discussed
the lead time issue with a DSCC demand planner, who informed us that there was not
sufficient lead time to add the M2 kit demands and purchase the stock to meet the kit
delivery schedule.

Bill of Materials Validation
DSCC did not validate the customer’s completed bill of materials and purchased
unnecessary inventories for items that were not part of the M2 gun kit. Specifically,
DSCC improperly loaded M2 gun kit demands for four of our sample items that the U.S.
Army did not order on the completed M2 gun kit bill of materials. DSCC personnel
loaded the items based on preliminary M2 kit lists and did not reconcile the preliminary
lists to the completed bill of materials. For example, DSCC personnel improperly loaded
forecasted kit demands for stripper links and subsequently awarded a contract for 8,734
each to meet the anticipated kit demands. The U.S. Army did not need the stripper links
for the M2 overhaul program and did not order them on the final M2 gun kit bill of
materials. As a result, the on-hand balance exceeded 7,200 items. The item had an
average monthly demand of 127, so DSCC had about 56 months of stock on hand.

For two of the four items, DSCC improperly loaded kit demands for both the individual
parts and the next complete higher assemblies that contained the parts. The completed
bill of materials for the gun kit only contained the higher assemblies and not the
individual parts within the assemblies. If the depot was replacing the next higher
assembly as part of the overhaul, it would not have to replace the individual parts
contained within the higher assembly. DSCC personnel improperly loaded the demands
because they did not reconcile the preliminary lists they used to load the kit demand to
the completed bill of materials.

For example, we reviewed the requirements for retracting slides, which were a
component of the higher retracting slide assembly. Both of these items appeared on the
preliminary list that DSCC personnel used to load the kit demands for both items.
However, only the higher assembly was listed on the final bill of materials. As a result,

                                            25
DSCC purchased more than 10,500 retracting slides, which resulted in a total on-hand
stock balance of 13,248. The average monthly demand for the retracting slides was 223
per month, so DSCC had approximately 59 months of stock on hand.

Cost to Obtain Parts and Unnecessary Buys
The Anniston Army Depot small arms shop was forced to implement other than ideal
means to obtain the necessary parts to complete its FY 2008 M2 machine gun overhaul
program, which carried over into FY 2009. Specifically, the U.S. Army had to
disassemble unserviceable M2 machine guns to obtain parts and also rework
nonconforming parts. The U.S. Army and DSCC expended $375,000 on these efforts.

Despite the DLA gun kit problems, Anniston Army Depot overhauled 2,110 of the
planned 2,600 guns in FY 2008 and completed the remaining guns in FY 2009.
Personnel conducted the overhauls using incomplete DLA part kits supplemented by
M2 gun parts from the Anniston Army Depot small arms shop.

U.S. Army officials informed us that because of the problems with the DLA kits, they
had to resort to other means to obtain the required parts. The U.S. Army authorized a
program, costing $222,300, to disassemble 1,300 unserviceable M2 guns at Anniston
Army Depot. Personnel obtained select parts from the guns to compensate for DLA
M2 gun kit shortages. When depot personnel completed the disassembly program, they
returned the guns to stock in an unserviceable (incomplete) condition. Depot personnel
showed us these guns, which were basically a shell of an M2 gun consisting of a receiver
that would require close to 100-percent replacement in a future overhaul program.

Anniston Army Depot personnel also had to rework substandard parts that DLA provided
in the M2 gun kits, and they had to refinish items that did not have a proper phosphate
coating. Depot personnel estimated that they devoted at least 47 hours to reworking
parts. In addition, DSCC provided $153,229 to the U.S. Army to refinish the parts DLA
included in the M2 kits that lacked proper phosphate coating.

DSCC purchased unnecessary inventories for four items that were not part of the M2 gun
kit. The unnecessary inventory purchases used DSCC funds that could have been spent
on other DSCC requirements.

Recommendations, Management Comments, and Our
Response
C. We recommend that the Director, Defense Logistics Agency establish controls to
require personnel involved with future spare part kit assemblies to comply with
existing Defense Logistics Agency policy. Specifically, personnel involved in the
assembly process should validate:

   1. Sources of supply and related component lead times to meet the customer
demand and delivery schedule.


                                           26
   2. The completed bill of materials before making more purchases for the kit
requirements.

Defense Logistics Agency Comments
The Director, Acquisition Management, responded for the Director, DLA, and agreed
with the recommendations. She stated that the recommended actions would be
incorporated on all future kits.

Our Response
We consider the Director’s comments to be responsive.




                                         27
Finding D. Contractor Deliveries
DSCC did not pursue adequate compensation when contractors routinely delivered
critical application M2 gun parts significantly later than contracted delivery dates on 49
contracts. In addition, DSCC did not always document its justifications for modifying
contract delivery dates. These conditions occurred in part because:

      DSCC business practices did not require contracting personnel to consistently
       request contractor compensation in accordance with DLA acquisition policy, and
      contracts for M2 gun parts did not specifically require contractors to provide
       consideration for late deliveries without a contract modification.

In addition, DLA and DSCC acquisition policies provided inconsistent guidance on the
formulas contracting officials should use to determine the amount of consideration to
obtain from contractors, and DSCC did not use either formula. As a result, DSCC did not
consistently hold contractors accountable for failing to meet contractual delivery terms
and provided little incentive for on-time contractor deliveries. The late deliveries
contributed to the M2 gun part backorder situation discussed in Finding A. Further,
DSCC missed an opportunity to obtain approximately $405,000 in contractor
compensation.

Criteria for Contractor Deliveries
FAR Subpart 8.406-3, “Remedies for Non Conformance,” specifies that the ordering
activity may terminate an order for cause or modify an order to establish a new delivery
date, after obtaining compensation as appropriate, when the contractor fails to perform or
take appropriate corrective action.

DLAD Subpart 43.103, “Contract Modification,” specifies actions contracting personnel
may take to extend delivery schedules. DLA policy specifies that contracting officials
may process contractor-caused delivery extensions when they are in the Government’s
best interest, but contracting officials should obtain compensation. The DLA policy
states that the most appropriate form of compensation is monetary.

The DSCC Acquisition Guide, Subpart 43.102, “Contract Modifications,” also specifies
that DSCC should obtain compensation when processing modifications to provide
contractor relief. The DSCC Acquisition Guide also specifies that contracting officials
are responsible for protecting the Government’s interest and obtaining adequate
compensation for extending delivery schedules. Compensation may be monetary or
include stepped up delivery schedules on the same or other contracts or may consist of
obtaining more units at no cost. The policy specifies that monetary compensation is
preferred.




                                            28
Contractor Late Deliveries
Contractors routinely delivered critical application M2 machine gun parts significantly
later than the original and modified contract delivery dates, and DSCC did not
consistently request compensation. Specifically, for 21 of our sampled M2 parts,
contractors delivered parts on average between 13 and 455 days later than the original
contract delivery dates. For 13 M2 parts, contractors delivered them on average between
15 and 279 days later than the modified contract delivery dates. In some cases, DSCC
modified the contract to extend delivery dates but did not always justify the modification.

Original Contract Delivery Terms
For 265 of the 336 sampled contract line items, contractors delivered critical application
M2 gun parts later than the original contracted delivery date. Table 4 illustrates the
comparison of the original DSCC contract terms with the actual contractor deliveries.

           Table 4. Contractor Late Deliveries - Original Contract Terms
                                  Contract     Line Items    Average
                                    Line        Delivered      Days
                   Item            Items          Late         Late
          Cartridge Ejector          16             15         455
          Accelerator Lock           13             13         306
          Cover Subassembly          22             21         260
          Belt Slide Assembly        28             26         237
          Extension Assembly         35             32         197
          Breechlock Cam             28             24         176
          Sleeve Buffer Tube         15             13         161
          Stripper Link                6             4         150
          Retracting Plunger           2             2         149
          Back Plate                   7             7         149
          Breech Lock                14             12         128
          Trigger Bar                17             13         111
          Machine Accelerator        21             18          68
          Recoil Buffer                7             5          67
          Firing Pin                   9             7          63
          Latch Bolt                 21             14          56
          Automatic Gun Stop         19              5          50
          Rear Sight                 32             22          35
          Retracting Slide           12              4          29
          Gunsight Cover             10              6          19
          Handle Lock                  2             2          13
           Total                    336            265



                                            29
Modified Contract Delivery Terms
For 98 of the 336 line items, DSCC processed contract modifications to extend the
delivery dates. For 89 of the 98 modified contract line items, contractors delivered
material later than the extended delivery date, and DLA only obtained compensation in
three instances. DSCC processed the modifications as a result of both Government- and
contractor-caused delays. Table 5 illustrates the number of contract line items for which
contractors delivered material later than the modified contract terms and the average
number of days late.

        Table 5. Contractor Late Deliveries - Modified Contract Terms

                                        Contract        Line Items
                                          Line          Delivered      Average
                  Item                   Items             Late       Days Late
         Cartridge Ejector*                 7                6            279
         Belt Slide Assembly               17               17            210
         Sleeve Buffer Tube                 5                5            174
         Firing Pin                         1                1            162
         Cover Subassembly*                 8                7            136
         Accelerator Lock                  11               11            111
         Stripper Link                      4                4             83
         Back Plate                         2                2             52
         Extension Assembly                21               19             51
         Breechlock Cam                    10                6             36
         Trigger Bar                        5                5             32
         Breech Lock                        5                5             23
         Machine Accelerator                1                1             15
         Latch Bolt                         1                0              0
          Total                            98               89
          *DLA obtained compensation to extend the delivery schedule on three contract
           line items for these items. See Table 6 for additional information.

DSCC did not always document the reasons for modifying contracts. Specifically, for 13
of the 98 modified contract line items, DSCC could not provide justification for the
contract modifications. Therefore, we could not determine whether the reason for the
modification was a Government- or contractor-caused delay.

DSCC Practice of Requesting Compensation
DSCC business practices did not involve consistently requesting compensation from
contractors in accordance with DLA acquisition policy. The policy provides that
contracting officials should obtain compensation, preferably monetary, when processing


                                                  30
contractor-caused delivery extensions in the Government’s best interest. For the 265
contract line items having contractor late deliveries, DSCC obtained compensation,
through a contract modification, on only three line items.

Several DSCC contracting officials stated that, in many cases, they simply chose not to
modify contracts and allowed contractors to deliver material late. For example,
contractors delivered retracting plungers an average of 149 days late, and DLA did not
obtain compensation. A DSCC contracting official informed us that DSCC allowed the
contractors to deliver in delinquent status and did not process contract modifications for
the late deliveries.

In another instance, a DSCC contracting official stated that DSCC often does not pursue
compensation and just leaves the award in delinquent status instead of extending the
delivery date. The official further explained that regardless of the program involved, it is
DSCC’s decision whether or not to pursue compensation, and the urgency of the
requirement plays a part in the decision. Another DSCC official stated that there was a
limited supplier base for small arms parts. In any event, we acknowledge that there may
be valid reasons for occasionally extending contract delivery terms for the benefit of a
contractor. However, in our opinion, the practice occurred too frequently at DSCC for
the contracts we examined.

DSCC Contracts for M2 Gun Parts
DSCC contracts for M2 gun parts did not specifically require contractors to provide
compensation for late deliveries without a contract modification. Therefore, the only way
DSCC could obtain compensation for a contractor’s late delivery was if the contractor
agreed to provide it and signed a contract modification. If the contractor requested an
extension before the scheduled delivery date, DSCC could consider the offer and
negotiate a modified delivery date with compensation. Once the delivery date passed, the
contract would be in a delinquent status. DSCC’s only other recourse for contractor
nonperformance would be to terminate the contract.

DSCC tracks contractor late deliveries in the Automated Best Value System and uses this
information to make future best value awards. However, this process loses effectiveness
if DSCC routinely allows contractors to deliver parts late, and most end up having low
Automated Best Value System delivery scores. For example, a DSCC contracting
official who purchases M2 gun parts cited concerns with having to select from groups of
small businesses who all have a history of poor contract delivery performance.

Compensation Formulas and Amounts DSCC Obtained
DLA and DSCC acquisition policies provided inconsistent guidance on the formulas
contracting officials should use to determine the amount of compensation to obtain from
contractors. In addition, DSCC did not use either formula in the few instances where
they obtained contractor compensation.




                                             31
DLAD Subpart 43.103 encourages contracting officials to use the “amount of
consideration” formula to assess contractors. The formula multiplies a prescribed Supply
Center cost per day ratio by the days and value extended plus a processing cost.

For example, the amount of compensation for a 30-day extension on a $50,000 contract
equals $1,846.

       DLAD Compensation: (0.00118 x 30 x $50,000) = $1,770 + $76 = $1,846*
       * The DLAD lists a $291 direct cost for DCMA-administered contracts, so for this
       example, the formula would be (0.00118 x 30 x $50,000) = $1,770 + $291 = $2,061.

The DSCC Acquisition Guide calculation uses a “one percent per month of the value of
the delinquency” formula and adds a $110 administrative cost. For example, the
consideration for a 30-day extension on a $50,000 contract equals $610.

     DSCC Compensation: ($50,000 x 1 percent x 1 month) = $500 + $110 = $610

For the DLAD formula, calculating compensation based on the DSCC cost-per-day ratio
results in a 3.7-percent compensation amount for a 30-day extension. In contrast, the
DSCC formula results in a 1-percent amount for the same extension.

DSCC did not use either of the prescribed formulas for the three instances where they
obtained contractor compensation. In all three instances, DSCC extended the delivery
dates but failed to obtain sufficient compensation based on DLAD or DSCC policy.
Table 6 illustrates the compensation DSCC obtained along with the compensation
amounts based on DSCC and DLAD formulas.

  Table 6. Compensation Obtained Compared With DSCC and DLAD Formulas
                         Days     Compensation    DSCC        DLAD
         Item          Extended     Obtained     Formula     Formula
 Cover Subassembly       116           $700       $3,562     $12,724
 Cartridge Ejector       283            538        1,155       4,044
 Cartridge Ejector       230            262          629       2,146
  Total                              $1,500       $5,346     $18,914

For cover subassemblies, the contractor cited problems obtaining castings and requested a
delivery extension of 116 days and offered $700 as compensation. DSCC accepted the
compensation offer and modified the delivery terms on the contract. However, $700 was
significantly less than the amount would have been had DSCC used the DLAD or DSCC
Acquisition Guide formulas.




                                                32
Unrealized Potential Compensation
For 49 contracts with 173 contract line items, DSCC missed an opportunity to obtain
approximately $405,000 in compensation for contractor late deliveries. 10 Table 7
illustrates the compensation amounts DSCC could have pursued based on the formula in
its Acquisition Guide.

              Table 7. Value of Compensation DSCC Could Have Pursued
                             30-59 Days 60-119 Days    120+ Days
                                 Late         Late        Late        Total
     Contract Line Items          41           31          101         173
     Line Item Value          $2,700,039   $3,073,656  $4,151,350 $9,925,045
     Forgone Compensation        $29,985      $79,446    $295,281    $404,712

For belt slide assemblies, a contractor delivered material an average of 269 days late on
six contract line items, and DLA did not obtain monetary compensation. DSCC modified
the six contract line items for 3,243 parts for its convenience and extended the delivery
date by approximately 96 days. However, when the extended delivery date arrived, the
contractor informed DSCC of production and scheduling problems. Ultimately, the
contractor delivered the parts 269 days past the modified delivery date, and DLA did not
obtain monetary compensation. Subsequent orders for thousands of parts with the same
contractor were more than 250 days past due at the completion of our audit. If
contracting officers had pursued compensation, they could have obtained $5,075 based
on the DSCC Acquisition Guide formula or $18,202 based on the DLAD formula.

Conclusion
DSCC contracting officials were not holding contractors accountable for late deliveries of
critical application M2 gun parts. Monetary compensation for nonperformance is a key
element DSCC can use to hold contractors accountable for complying with contract
delivery terms. According to FAR, DLAD, and DSCC acquisition guidance, contracting
officers may establish new delivery dates with adequate compensation. DSCC
contracting officials have adopted a business practice of allowing contractors to deliver
critical application M2 gun parts in a delinquent status without pursuing adequate
compensation. We determined that DSCC contracting officers could have pursued
approximately $405,000 in compensation for late deliveries. DLA needs to implement
measures that will allow the Supply Centers to consistently hold contractors accountable
and obtain sufficient compensation when contractors deliver late.




10
  For this analysis, we focused on contractor deliveries more than 30 days late and excluded contractor late
deliveries resulting from Government-caused delays, such as product verification testing.

                                                    33
Recommendations, Management Comments, and Our
Response
D. We recommend that the Director, Defense Logistics Agency:

   1. Establish controls and implement measures to ensure that Defense Supply
Center contracting officials hold contractors accountable for delinquent deliveries
and consistently pursue consideration when extending delivery schedules for the
convenience of the contractor.

   2. Ensure that the Defense Supply Center Acquisition Guide provides policy
that is consistent with Defense Logistics Agency Directive Subpart 43.103 guidance.

    3. Ensure that the Defense Supply Center contracting officials fully disclose the
justification for contract modifications in the contract file.

    4. Evaluate contractor delivery performance for small arms critical application
items and determine whether additional contract language is necessary to
specifically require contractors to compensate the Government for late deliveries.

Defense Logistics Agency Comments
The Director, Acquisition Management, responded for the Director, DLA, and agreed
with recommendations D.1 through D.4. She stated that each supply chain has
established an associate position for contract quality control to audit pre- and post-award
performance and that the contract quality associate and management team would monitor
specific corrective actions as part of the audits.

Our Response
We consider the Director’s comments to be responsive for recommendations D.1 and
D.4. However, although the Director agreed with recommendation D.2, we consider the
comments to be partially responsive because the Director did not provide specific
corrective actions to address the inconsistency between the Acquisition Guide and the
DLAD. In addition, although the Director agreed with recommendation D.3, we consider
the comments to be partially responsive because the Director did not provide specific
corrective actions to ensure that Defense Supply Center contracting officials fully
disclose the justification for contract modifications in the contract file. We request that
the Director, DLA, provide specific corrective actions to address recommendations D.2
and D.3.




                                            34
Appendix A. Scope and Methodology
We conducted this performance audit from May 2008 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We originally announced this audit in May 2008 and reannounced it in August 2008 to
clarify that the audit would focus on vehicle-mounted small arms spare parts. This report
focuses on DLA contracts for M2 machine gun spare parts.

We reviewed Federal and DOD acquisition requirements to evaluate whether DLA used
appropriate and effective contracting procedures. Specifically, we examined sections of
the FAR, Defense FAR Supplement, DOD Regulations and Instructions, DLA
Regulations and Directives, and DSCC Policy. We examined the methods DSCC used to
purchase a sample of M2 gun parts. We used nonstatistical methods and judgmentally
selected a sample of 22 unique items by national stock number to examine. We chose
these M2 gun parts based on the presence of both backorders and PQDRs. The following
table lists the national stock numbers of the M2 gun parts we examined.

                        Table. National Stock Numbers Examined
                   National Stock Number              Item Name
                      1005-00-336-8608                 Rear Sight
                      1005-00-501-3541               Stripper Link
                      1005-00-515-2869               Recoil Buffer
                      1005-00-550-4060                 Latch Bolt
                      1005-00-550-4081           Cover Subassembly
                      1005-00-550-4082           Extension Assembly
                      1005-00-550-4094            Sleeve Buffer Tube
                      1005-00-550-8141           Machine Accelerator
                      1005-00-600-8935              Gunsight Cover
                      1005-00-600-8990            Retracting Plunger
                      1005-00-600-9732             Cartridge Ejector
                      1005-00-614-7583             Breechlock Cam
                      1005-00-614-7893             Retracting Slide
                      1005-00-625-7592                Trigger Bar
                      1005-00-626-1110           Belt Slide Assembly
                      1005-00-701-2730               Handle Lock
                      1005-00-716-1300             Accelerator Lock
                      1005-00-716-1301           Automatic Gun Stop


                                           35
                    Table. National Stock Numbers Examined (cont’d)
                  National Stock Number            Item Name
                     1005-00-716-1302              Breech Lock
                     1005-00-731-0080               Firing Pin
                     1005-00-918-2618               Back Plate
                     1005-01-557-8376                Parts Kit

We limited our scope to recent contracts and management functions related to our sample
items. We reviewed recent DSCC electronic contract files for our sampled items.
Specifically, we reviewed 103 contracts consisting of 382 individual contract line items
and evaluated contractor performance. We reviewed 97 contract modifications. We
reviewed PQDRs that DOD personnel originated between October 1, 2005, and
July, 1, 2008. We reviewed DSCC end-of-month listings of open backorders for each
month from July 2007 through June 2008. We met with various DSCC contracting and
supply management personnel. We also coordinated our sample items with DSCC Senior
Fraud Counsel for contracting integrity and with Defense Criminal Investigation Service
agents responsible for investigating contractor fraud at DSCC. During the audit, we
visited or contacted the following organizations:

      DLA Headquarters
        Defense Supply Center Columbus
        Defense Distribution Depot Anniston
      U.S. Army Materiel Command
         U.S. Army TACOM Life Cycle Management Command, Rock Island
        U.S. Army Research, Development and Engineering Command
        U.S. Army Armament Research, Development and Engineering Center
        U.S. Army Joint Manufacturing and Technology Center
        Anniston Army Depot
      DCMA Headquarters
         DCMA Hartford, Huntsville, Orlando, Pittsburgh, and Santa Ana Offices

Use of Computer-Processed Data
We relied on computer-processed data on backordered customer requisitions, PQDRs,
and contractor deliveries from the DLA Enterprise Business System. In addition, we
relied on computer-processed data on PQDRs from the U.S. Navy-hosted Product Data
Reporting and Evaluation Program. The computer-processed data were determined to be
reliable. For our sample items we reviewed the contracts, PQDRs, and other source
documents that supported the computer-processed data. Nothing came to our attention as
a result of our procedures that caused us to doubt the reliability of the computer-
processed data.

Prior Coverage
No prior coverage has been conducted on DLA contracts for M2 gun parts during the last
5 years.


                                          36
Appendix B. Other Matters of Interest
Technical Data Packages for M2 Machine Guns
During the audit, we met with U.S. Army Research, Development and Engineering
Command personnel to discuss quality problems associated with DLA-managed M2 gun
parts. U.S. Army personnel cited concerns with the technical data packages DLA uses in
its contracts.

Technical data packages are the engineering specifications, such as drawings and
characteristics, that describe the Government’s requirements for an item. DLA includes
the technical data package information in its contracts. Engineers periodically make
revisions to the drawings. Therefore, it is important for DLA to use the most recent
technical data package information when purchasing a particular part. The scope of our
review did not include a full assessment of the technical data package process, but we
believe that the concerns raised by U.S. Army officials are valid and also represent
important information that could benefit other weapon system managers.

The U.S. Army ARDEC is the engineering support activity for the M2 gun. However,
DLA purchases a majority of the M2 gun spare parts. ARDEC officials cited concerns
that DLA does not always use the most current technical data packages when purchasing
M2 gun parts. ARDEC provided us with the results of a study it performed on the
accuracy of technical data packages for 15 DLA-managed M2 gun parts used to support
Anniston Army Depot overhaul projects. ARDEC determined that discrepancies existed
with the technical data packages for all 15 parts. The discrepancies included missing
engineering changes and missing or out-of-date drawings.

To ensure that DLA uses current technical policy, ARDEC signed a memorandum of
agreement with DSCC. The memorandum outlined a process for DSCC to provide
M2 gun part technical data packages to ARDEC for review and certification. The
memorandum also provided details on DSCC’s reimbursing ARDEC for the engineering
services associated with the certification efforts. The memorandum only addressed
technical data packages for M2 gun parts, which only represent a small portion of DLA-
managed items.

DSCC Process Improvements
In response to a discussion draft of this report, DSCC provided a list of additional process
improvements it had recently implemented to improve the quality of its spare parts. We
did not validate the effectiveness of these management actions. DSCC indicated it
developed and implemented internal process reviews to improve the following areas:

    Phosphate procedure receipt/review/determination.
    First article test report receipt/review/determination.
    Improved visibility of outstanding post-award actions.


                                            37
   Timely and effective quality assurance letter of instructions.
   Contractor performance history/pre-award survey process training, which includes
    how to use the DCMA pre-award survey database.

DSCC also indicated that it implemented the following process improvements over the
last 6 months:

   Developed, trained, and implemented procedures for managing the phosphate
    coating process.
   Implemented a requirement for buyers to ensure potential offerors identify the
    actual manufacturer and the phosphate and packaging subcontractors on all quotes
    and on the award.
   Trained product specialists on DCMA Electronic Web Access Management
    Electronic Tool Web site, which is used to evaluate pre-award survey history of the
    contractor in line for award.
   Developed training aides that included minimum contract requirements for all small
    arms procurements.
   Improved the quality assurance letter of instructions for all small arms
    procurements.
   Trained product specialists on the technical data review process outlined in the
    ARDEC memorandum of agreement.




                                          38
Appendix C. Quality Letter of Instruction for
M2 Gun Part Contracts
A quality letter of instruction consists of information or instruction provided to the
activity responsible for Government contract quality assurance actions at source or
destination for the purpose of ensuring the integrity of DLA-procured products and
services. The letter may specify the type and extent of Government inspection of
selected product or process characteristics, or it may provide adverse quality history on
an item or contractor. DSCC developed the following instructions for M2 gun part
contracts.

       An alternate release procedure will not be utilized on subject contract until a coordinated
       surveillance plan has been implemented and the results indicate the supplier is compliant
       with the International Organization for Standardization requirement, and the DCMA
       receives concurrence from the DSCC product assurance specialist point of contact (POC)
       for this contract.

       The identified product assurance specialist must be notified when a surveillance
       assessment is to be performed.

       The identified product assurance specialist must be informed of any degradation in the
       quality management system or product quality throughout the life of the contract. All
       “corrective action requests” (CAR) issued to the prime and all sub-vendors will be
       furnished to the DSCC product assurance specialist point of contact.

       This contract contains deliverables identified in the DD form 1423. Contract Data
       Requirements List requirements relative to phosphate coating process approval must be
       filled out by the [quality assurance representative] and submitted to DSCC within 15 days
       of contract award. A checklist will be provided to the [quality assurance representative]
       for submission to the addresses indicated on the DD form 1423.

       Related drawings indicate this contract is for M2 machine gun material. The [quality
       assurance representative] must ensure contractor and any sub vendors are aware that only
       manganese phosphate coating per mil-DTL-16232G is acceptable.

       Critical characteristics and all major characteristics indicated on the associated drawings
       and technical data package will be verified by the [quality assurance representative].

       DCMA will review contractors purchasing system to assure proper documentation is
       provided of materials used and sub vendor processes and testing procedures that cannot
       be verified at the prime contractor level.

       The DSCC product assurance specialist assigned responsibility for this contract, does not
       consider a quality assurance post award conference necessary, however, if the [quality
       assurance representative] desires a conference, please notify the DSCC product assurance
       point of contact.




                                                   39
Defense Logistics Agency Comments




                  Click to add JPEG file




                                 40
Click to add JPEG file




               41
Click to add JPEG file




               42
Click to add JPEG file




               43
Defense Contract Management Agency Comments




                 Click to add JPEG file




                                44
